SEMIANNUAL REPORT TO CONGRESS




       U.S. ELECTION ASSISTANCE
               COMMISSION
    OFFICE OF INSPECTOR GENERAL




For the Period:
October 1, 2009, through
March 31, 2010
A Message from the Inspector General

This report is submitted to Congress pursuant to the Inspector General
Act of 1978, as amended. It summarizes the activities of the Office of
Inspector General (OIG) for the six-month period ending March 31, 2010.


During this semiannual reporting period, we issued six reports on audits
evaluations and investigations conducted relating to U.S. Election
Assistance Commission (EAC) programs and operations. Two reports
related to audits of the states’ uses of Help America Vote Act (HAVA)
funds. Three reports related to audits or evaluations of EAC operations.
One report concluded an internal, administrative investigation of the
EAC’s working environment.


We found that the audited states were generally using HAVA funds
properly, but there were issues with documenting expenses—including
salaries—and inventorying equipment purchased with Federal funds. The
reports resulted in $81,000 in questioned costs and made eight
recommendations to states to improve their administration of HAVA
funds that were referred to the EAC for resolution.


The financial statement audit revealed a great deal of improvement in
internal controls and financial management activities at the EAC. The
EAC received an unqualified opinion in 2009 as compared to a disclaimer
for 2008. However, the audit of the EAC’s compliance with the Federal
Information Security Management Act shows that there is much work to
be done in order to comply with Federal information security standards.


The EAC has not yet adopted and implemented much needed policies and
procedures to underpin its other operations. The absence of these
policies and procedures was evident in our investigation of the EAC’s
working environment and the EAC’s most recent employee satisfaction
survey. Employees expressed fear of retaliation and an overall lack of
understanding of roles, responsibilities and expectations. The OIG will


                                     i
continue to follow up on recommendations made to the EAC and will
work with the EAC to implement these fundamental policies.


Over the coming six-month period, the OIG will endeavor to hire an
additional auditor so that we can augment audits of HAVA funds using
in-house staff versus having virtually all audits conducted by contracted
auditors. We also anticipate that the OIG will turn some of its resources
to auditing the other, smaller EAC grant programs such as the HAVA
College Poll Worker program.


Submitted April 30, 2010



Curtis W. Crider
Inspector General




                                     ii
Profile of Performance

       Audit, Evaluation and Investigation Reports Issued
    for the Period October 1, 2009, through March 31, 2010




                   17%
                                             HAVA Funds Audits (2)
                                 33%

                                             Audits and Evaluations of 
                                             EAC (3)
                                             Investigations (1)

                   50%




                         Profile of Performance
    for the Period October 1, 2009, through March 31, 2010


Results
Questioned Costs                                       $ 81,374
Potential Additional Program Funds                    $ 858,000
Funds to be Put to Better Use                              $0




                                     iii
Table of Contents
                                                       Page




Election Assistance Commission Profile                  1


Office of Inspector General Profile                     2

Management Challenges                                   3

State Audits                                            4

Reviews of EAC Operations                               6

Investigations                                         10

Other Activities                                       12


Appendices:
  A. Reports Issued                                    16
  B. Monetary Impact of Audit Activities               17
  C. Reports with Questioned Costs                     18
  D. Reports with Potential Additional Program Funds   19
  E. Summary of Reports More Than 6 Months Old         20
     Pending Corrective Action at March 31, 2010
  F. Summary of Reports More Than 6 Months Old         21
     Pending Management Decision at March 31,
     2010
  G. Reporting Requirements of the Inspector           22
     General Act



                                iv
Election Assistance Commission Profile

The U.S. Election Assistance Commission (EAC or Commission) is a
bipartisan, independent commission consisting of four members: Donetta
Davidson, Chair; Gineen Bresso; and Gracia Hillman. There is one vacancy
on the Commission due to the resignation of a Commissioner in February
2009.


The EAC was created by the Help America Vote Act of 2002 (HAVA) to
assist states with improving the administration of elections for Federal
office. The EAC accomplishes this mission by providing funding,
innovation, guidance and information that can be used by the states to
purchase equipment, train election personnel, and implement new
election programs. The EAC has distributed approximately $3.1 billion in
funding to the 50 states, the District of Columbia, Puerto Rico, the U.S.
Virgin Islands, Guam and American Samoa (hereinafter referred to as
“states”). With those funds, the states have purchased voting equipment,
established statewide voter registration lists, implemented provisional
voting, provided informational material to voters at the polling place, and
implemented a program to verify the identity of voters using the
statewide voter registration list in combination with other state and
Federal databases.


HAVA also placed EAC in charge of the first Federally-run testing and
certification program for voting systems. Through its program, the EAC
develops standards for voting equipment, accredits laboratories, and
reviews and certifies voting equipment based upon the tests performed
by the accredited laboratories.


The EAC also has the responsibility for administering the National Voter
Registration Act (NVRA) by promulgating regulations for the content and
use of the National Mail Voter Registration form. The EAC inherited the
responsibility from the Federal Election Commission.




                                     1
Office of Inspector General Profile

The EAC is a designated Federal entity under the Inspector General Act
(IG Act) of 1978 (5 U.S.C.A. App. 3). As such, the Commission in August
2006 appointed the Inspector General. The OIG also employs an
assistant inspector general for audits and a general counsel.


We perform the duties of the Inspector General as established in the IG
Act, including:


      Conducting and supervising audits, investigations, and other
       services (e.g., evaluations) relating to the programs and operations
       of the EAC;


      Providing leadership and coordination, and recommending actions
       to management, which (1) promote economy, efficiency, and
       effectiveness in agency programs and operations; and (2) prevent
       and detect fraud, waste, abuse, and mismanagement of
       government resources; and


      Keeping the agency head, management, and Congress fully
       informed regarding problems and deficiencies, and the progress of
       corrective actions.


To accomplish all of this with our limited staff, we use contract auditors
to conduct many of the state and agency audits. In addition, when
conducting an investigation, we work with other Federal government
agencies to detail or contract for investigative services.


Since the inception of the audit program, the OIG has completed 24
audits of states – with nine additional audits under way. Over the past
year and a half, the OIG has seen a trend in the monetary findings
associated with its HAVA funds audits. The instances and amount of
questioned costs are reduced. We also are seeing an increase in the


                                      2
numbers of transactions to be audited in light of the fact that states have
made the large, one-time purchases of voting equipment and
infrastructure needed for its statewide voter registration databases.


The OIG’s program to ensure economy, efficiency and integrity in the use
of funds is not exclusively translated into audits, evaluations and
investigations. The OIG has also worked to educate EAC, its employees
and the general public about the OIG, its work and the protections it can
afford. In January 2010, the OIG issued its first, semi-annual newsletter.
The newsletter focused on how our constituents could report waste, fraud
or abuse in EAC programs or operations. Likewise, the OIG has
conducted training for the EAC staff regarding the role of the OIG and
regarding the Whistleblower Protection Act. Most recently, the OIG has
retooled its website to provide more information about the OIG, the
reviews that we conduct, and our role in preventing and detecting waste,
fraud and abuse.

EAC’s Management Challenges

In keeping with the requirements of the Chief Financial Officers Act of
1990 and the Reports Consolidation Act of 2002, the OIG identified four
management challenges in 2009: (1) performance management and
accountability, (2) financial management and performance, (3)
information technology management and security, and (4) human capital
management. The first two management challenges were identified in
2008, but remained issues in 2009. The two new challenges were related
to information technology and human capital management. These new
management challenges were derived from the annual reviews of
compliance with the Federal Information Security Management Act
(FISMA) from 2006, 2007, 2008 and 2009 as well as from the EAC’s
annual employee satisfaction survey from 2007 and 2008.


The OIG not only works to identify management challenges, but also to
ensure that the EAC implements policies, procedures and programs to



                                     3
overcome those challenges. Our monitoring of EAC activities disclosed
that the EAC has developed policies and procedures related to the roles
and responsibilities of the Commissioners and executive director,
developed and implemented policies and procedures related to financial
management, developed a plan of action and milestone document for
bringing EAC into compliance with FISMA, and adopted a strategic plan to
guide EAC’s operations for the coming fiscal years. However, current
reviews of financial statements, FISMA compliance, and other EAC
operations indicate that there is still work to be done by EAC to ensure
that it has the framework of needed policies and procedures to sustain its
programs and operations.


State Audits

The OIG conducts audits of the recipients of HAVA funds. Through those
audits, the OIG examines whether the recipient used HAVA funds in
accordance with HAVA and other applicable Federal requirements. We
also determine whether the recipient has properly accounted for
purchases made with HAVA funds and any income derived from those
purchases. Last, we assess whether grant funding was maintained and
accounted for in keeping with HAVA, particularly whether the recipient
provided sufficient matching funds and maintained Federal monies in a
separate election fund.


During the reporting period, the OIG contracted with the professional
auditing firm, Clifton Gunderson LLP, to conduct the audits. Two reports
were issued based upon those audits:


Arkansas: The audit of the Arkansas Secretary of State (SOS) revealed that
the SOS generally accounted for and expended HAVA funds in accordance
with the HAVA requirements and complied with the financial management
requirements established by the EAC. The SOS also complied with
section 251 requirements. However, the SOS did not maintain a
comprehensive inventory of property as required by the Uniform


                                     4
Administrative Requirements for Grants and Cooperative Agreements
with State and Local Governments, 41 C.F.R. § 105-71.132. Likewise, the
SOS did not have semi-annual time certifications for persons who worked
full-time on HAVA-related activities and whose salaries were funded by
HAVA.


In its response to the draft report, the SOS generally agreed with the
report’s findings and recommendations and provided corrective actions.



California: This was the second audit conducted of the state of
California’s use of HAVA funds. The first audit was conducted in 2006
and covered only a small portion of the funds that California has
currently expended. Thus, a second audit was conducted to cover the
vast portion of money spent by California.

This audit of the California Secretary of State (SOS) disclosed that the
SOS generally accounted for and expended HAVA funds in accordance
with the HAVA requirements and complied with the financial
management requirements established by the U.S. Election Assistance
Commission (EAC). The SOS also complied with Section 251
requirements. There are some exceptions to this general finding:

      Errors in financial status reports regarding Section 101 funds
       submitted to the EAC;
      Section 102 funds transferred to county were not spent timely and
       interest earned on the idle funds was not deposited into the HAVA
       election fund;
      Insufficient property records - did not contain all of the
       information required by the Common Rule;
      Questioned $81,374 spent by State to print voter registration cards
       to be sent to each high school and university student in the state.


In its responses to the findings and recommendations, the SOS generally
agreed with the majority of findings and has implemented remedial



                                      5
measures recommended by the OIG. However, the SOS disagreed that
printing voter registration cards was an inappropriate use of HAVA funds.


Reviews of EAC Operations

Over the past six months, the OIG issued three audit or evaluation
reports covering reviews of EAC operations: Opinion on EAC’s Fiscal Year
2009 Financial Statements, Evaluation of Compliance with the
Requirements of the Federal Information Security Management Act, and
Evaluation of the U.S. Election Assistance Commission’s Purchase of
Shirts and Sweatshirts Using Appropriated Funds. Details of those
reviews follow:

Opinion on EAC’s Fiscal Year 2009 Financial Statements

In fiscal year 2009, the EAC was subject to a financial audit as required by
the Accountability of Tax Dollars Act of 2002 as their annual
appropriation exceeded $25 million. The audit was performed by Leon
Snead & Company, P.C. (Leon Snead) under a contract that was monitored
by the OIG.


With regard to the fiscal year 2009 financial statements, Leon Snead
found that they presented fairly the EAC’s financial position, net cost,
changes in net position, and budgetary resources, as of and for the year
ended September 30, 2009. Leon Snead further found that the financial
statements were prepared in conformity with accounting principles
generally accepted in the United States of America. In order to present
the fiscal year 2009 financial statements, the EAC had to restate certain
portions of the fiscal year 2008 financial statements. Leon Snead
reviewed those restated fiscal year 2008 financial statements as a part of
this review. Based upon identified concerns with the EAC’s internal
controls and financial reporting for that time period as well as the lack of
supporting documentation for transactions and account balances
reported in the fiscal year 2008 financial statements, as restated, Leon


                                     6
Snead was not able to state an opinion on the balance sheet and related
statements for that year.


Leon Snead identified three internal control weaknesses (one material
weakness and two significant deficiencies): accounting processes were
not in accordance with generally accepted accounting principles, journal
vouchers were not sufficiently supported, and EAC’s failure to comply
with FISMA could impact its financial management operations. EAC
generally agreed with the findings related to internal control weaknesses
and provided corrective action plans for each identified weakness.


In addition to these items, the OIG included two other matters in its
transmittal of the audit of EAC’s fiscal year 2009 financial statements, as
these matters could impact the EAC’s financial statements. The OIG
recognized that there are two opinion requests outstanding to the
Government Accountability Office (GAO) relative to financial matters
impacting the EAC. The requests cover two issues related to
appropriations given to the EAC in FY 2004, 2005 and 2009.


The first request relates to the EAC’s use of funds appropriated for
requirements payments in FY 2004 to fund two other grant programs, the
College Poll Worker Program and Parent Student Mock Election, in
keeping with the language of the conference report associated with the
FY 2004 appropriation. This issue involves a potential violation of the
Anti-deficiency Act. The second issue relates to the EAC’s recording
obligations based upon the appropriation of requirements payments
under continuing resolutions in FY 2005 and FY 2009. In light of the
GAO’s previous opinion that requirements payments are obligated by
operation of law, the question is whether the EAC has binding obligations
in favor of the states in the aggregate amount of the requirements
payments appropriated under the FY 2005 and FY 2009 continuing
resolutions.




                                     7
Compliance with FISMA

The fiscal year 2009 Financial Information Security Management Act
(FISMA) evaluation was conducted by Leon Snead. The report recognized
that the EAC has taken significant steps to address many of the serious
problems noted in prior FISMA reports. However, the EAC still needs to
make improvements in its agency-wide security program to bring it into
full compliance with Federal Information Security Management Act and
Office of Management and Budget requirements. The evaluation reported
the following findings related to information security and privacy
protection:


      Finding                            Title
      Number
     FY09-01 Establish an overall comprehensive plan of action
                and milestone (POA&M) document, with target
                dates for completion of corrective actions, to
                address the problems noted in this report. Assure
                that the plan is monitored on a monthly basis and
                updates provided to the commissioners.
     FY09-02 Provide sufficient specialized training to EAC
                personnel to enable EAC to develop and maintain
                a risk-based IT security program that meets
                FISMA requirements, or hire an official that has
                experience managing an agency-wide IT security
                program.
     FY09-03 Establish a continuous monitoring program to
                address the NIST 800-53 requirements.
     FY09-04 Finalize the EAC IT security handbook, and
                establish a process to identify and document
                necessary operational processes to enable
                personnel to meet the control requirements
                contained in the handbook, and applicable NIST
                control requirements.



                                     8
      Finding                           Title
      Number
     FY09-05 Assign a high priority to the completion of
                required contingency plans and COOP documents.
     FY09-06 Implement the minimum password settings for
                the network. Ensure that other FDCC mandatory
                configuration settings are established as soon as
                possible.
     FY09-07 Implement access controls required by FISMA,
                including controls over all remote access
                methods, and OMB guidance on securing PII data.
     FY09-08 Finalize the risk assessment, and ensure it is used
                to develop risk-based controls, and as a starting
                point for development of contingency plans and
                COOP documents.
     FY09-09 Monitor ongoing actions to ensure that
                compliance with OMB PII guidance and Privacy Act
                requirements are completed expeditiously.
     FY09-10 Establish controls over the audit logs maintained
                to ensure that the system is capable of providing
                required alerts. Ensure that periodic reviews are
                made of the logs to identify any unusual activity,
                other concerns or problems.
     FY09-11 Ensure that access controls are implemented for
                all EAC network devices.


The EAC generally concurred with the findings and recommendations of
the evaluation and provided a corrective action plan.


Purchase of Shirts and Sweatshirts Using Appropriated Funds

The OIG reviewed EAC’s purchase of shirts and sweatshirts as incentive
awards for its employees. The EAC used nearly $7000 in appropriated
funds for this purpose. The EAC distributed 195 of the 458 shirts that it



                                    9
ordered to its 38 employees and one contractor. The remaining 263
shirts were held in inventory for future awards.


The review considered whether the use of appropriated funds was
appropriate and whether EAC followed Federal requirements and
guidance in making the purchase. The OIG concluded that while the
purchase was permitted under law, the purchase was excessive and
created the appearance of misuse of Federal funds. We recommended
that the EAC address procurement and award program issues related to
the number of shirts purchased, the number of shirts given as an award
(each employee and contractor received 5 shirts), and the distribution of
awards of this nature to a contractor.


In response to this review, the EAC provided corrective action on eight of
the nine recommendations. EAC disagreed with the recommendation that
the agency amend its award program to comply with Federal
requirements prohibiting incentive awards to contractors. The EAC
disagreed that it was improper to make incentive awards to a contractor.


Investigations

The OIG completed an investigation of the EAC’s working environment in
March 2010. The investigation was initiated after the OIG received
numerous complaints from current and former employees and third
parties relating to allegations of fear of retaliation or reprisal for
reporting wrongdoing to management, a hostile working environment, as
well as allegations of poor management practices including cronyism in
hiring, poor communication, and lack of management accountability.
The OIG contracted with the Department of Interior Office of Inspector
General (DOI OIG) to conduct the investigation. 1



1
    Due to its size, the EAC OIG does not have an investigator on staff and contracts with
other government agencies to provide investigative services, when needed.



                                              10
The investigation was begun in September 2009. The DOI OIG
interviewed all current employees, eight former employees, and one
former EAC contractor in order to obtain a base of knowledge related to
the working environment at EAC as well as to identify any and all related
complaints. This was a particularly sensitive investigation in light of the
fear of retaliation that had already been expressed by several, current
EAC employees. Interviews were conducted off-site and confidentiality
was provided to ensure that the investigators were able to have open,
frank discussions with each of the interviewees.


Ultimately, the investigators did not find that actual retaliation had
occurred. The persons reporting fear of retaliation based their concerns
on the alleged treatment of four, former EAC employees. The
investigation found that most of these persons left the EAC voluntarily
although they felt that they were pushed out for having reported a
potential Anti-deficiency Act violation. Likewise, in assessing the
allegations against Federal statutes prohibiting hostile working
environments, the investigators found that the EAC did not foster a
hostile working environment based on race, color, gender, religion,
national origin, age, handicap, marital status or political affiliation.


The report did, however, identify some areas of concern. Therefore, the
OIG referred the report to EAC management for their review and
evaluation for future, remedial action. Concerns raised by the report
include the following:


      EAC employees feel more comfortable raising certain issues,
       including personnel matters, to the EAC OIG than to EAC
       management;
      Need for better communication throughout the EAC;
      EAC had no documentation to support claims of performance
       issues with employees;
      Complaints revealed a general dissatisfaction or distrust of
       supervisors or co-workers;



                                      11
      Complaints revealed that organizational changes at EAC have
       created the perception of an us/them environment


These concerns were echoed in the EAC’s 2010 Annual Employee Survey.
There, less than half of respondents believed that:


      Managers communicate the goals and priorities of the organization
       (45%);
      Leaders generate high levels of motivation and commitment in the
       workforce (42%);
      Employees have a feeling of personal empowerment with respect to
       work processes (34%);
      Promotions are based on merit (34%);
      Employees understood what they had to do to achieve a certain
       performance rating (41%); and
      Pay raises are dependent on how well a job is performed (28%).


EAC 2010 employee survey, questions 31, 26, 29, 15, 18, and 20. A copy
of the 2010 employee survey is available on the EAC’s Web site,
www.eac.gov.


While no formal recommendations were made as a part of this report and
the OIG will not track any of the informally communicated
recommendations, as of the date of this report, the EAC has not provided
any response to the OIG as to how it will address these concerns.


Other Activities

Reviews of Legislation, Rules, Regulations and Other Issuances


The OIG conducts regular monitoring of EAC program activities and
policy-making efforts. We provide comment to significant policy
statements, rulemaking and legislation that affects the EAC. During the
reporting period, the OIG provided comments on three proposals


                                    12
circulated by the Council on Inspectors General for Integrity and
Efficiency. The OIG also reviewed and/or provided suggested revisions to
a draft of EAC’s response and resolution of an audit conducted by the
state of Florida, the EAC’s proposed Guide to the Election Administration
and Voting Survey, a draft of the EAC proposed Maintenance of Effort
policy. Last, the OIG reviewed eight proposals published by other Federal
government agencies.


Non-Federal Audits


OMB Circular A-133 establishes audit requirements for state and local
governments, receiving Federal awards. Covered entities that expend
$500,000 or more a year in Federal awards are required to obtain an
annual organization-wide audit “single audit”. The audits are conducted
by non-Federal auditors, such as public accounting firms and state
auditors. OIG reviews the resulting audit reports, findings and
questioned costs related to EAC awards.


During this reporting period, the OIG referred the following Single Audits
to the EAC:


       New Jersey Statewide Single Audit for the Year Ended June 30,
         2008
       Illinois Statewide Single Audit for the Year Ended June 30, 2008


Investigations


The OIG operates a hotline for the receipt of complaints from employees
and members of the public. The OIG received 20 complaints during the
reporting period. Some of those complaints did not warrant an
investigation given the nature of the complaint. Several of the
complainants were referred to the EAC as the appropriate place to make
the complaint and seek remedial action. Three complaints were referred
to an ongoing investigation of the EAC’s working environment. Most of



                                    13
the complaints were investigated and closed. One complaint remains
open pending assessment.


Audits and Evaluations In Progress
During the reporting period, the OIG began or continued work on nine
audits of states’ use of HAVA funds. These audits were not completed by
the end of the reporting period.


The OIG also began two reviews based upon requests by members of
Congress. The first related to grants distributed by the EAC to ACORN or
its affiliates. The EAC made grants to Project Vote for work in two states
under the EAC’s College Poll Worker Program. The grants were for
$ 16,876 each and were awarded in 2006. The OIG has completed field
work on this audit and anticipates issuing a final report during the next
semi-annual reporting period.


The second request related to a settlement between the EAC and a former
candidate for the position of general counsel. The candidate alleged that
the EAC had committed a prohibited personnel practice by refusing to put
him in the position of general counsel based upon his political affiliation.
The candidate filed a complaint with the Office of Special Counsel. The
settlement resolved that complaint. The OIG was asked to review the
settlement and is evaluating whether the EAC had authority to enter into
the agreement, used proper fiscal year funds, and followed appropriate
protocol in entering into the agreement. The OIG is nearing completion
of field work on this evaluation and anticipates issuing a final report
during the next semi-annual reporting period.


Other Activities


The IG Act requires reporting on other activities. We are reporting no
activities in the following categories:


      Matters Referred to Prosecuting Authorities



                                      14
   Denial of Access to Records


   Significant Revised Management Decisions Made During the Period


   Significant Management Decisions with Which the Inspector General
    Disagrees




                                  15
                                                     Appendix A
Reports Issued


State Audits     1. Administration of Payments Received Under
                 the Help America Vote Act by the Arkansas
                 Secretary of State (Assignment Number E-HP-
                 AR-03-09), February 2010


                 2. Administration of Payments Received Under
                 the Help America Vote Act by the California
                 Secretary of State (Assignment Number E-HP-
                 CA-01-09), December 2009



EAC Audits and   1. Independent Auditor's Reports on the U.S.

Evaluations      Election Assistance Commission's Financial
                 Statements for Fiscal Year 2009 (Assignment
                 No. I-PA-EAC-01-09), November 2009


                 2. Evaluation of Compliance with the
                 Requirements of the Federal Information
                 Security Management Act (Assignment No. I-
                 PA-EAC-02-09), October 2009


                 3. Evaluation of the U.S. Election Assistance
                 Commission’s Purchase of Shirts and
                 Sweatshirts Using Appropriated Funds
                 (Assignment No. I-EV-EAC-01-09), October
                 2009


Investigations   1. Report of Investigation: Work Environment
                 at the U.S. Election Assistance Commission
                 (Assignment No. I-IV-EAC-01-09), March 2010


                          16
                                                       APPENDIX B
Monetary Impact of Audit Activities


Questioned Costs*                                      $ 81,374
Potential Additional Program Funds                     $ 858,000
Funds to Be Put to Better Use                                $0
Total                                                  $ 939,374
*Unsupported costs are included in questioned costs.




                                         17
                                                            APPENDIX C
Reports With Questioned Costs

                                             Questioned    Unsupported
            Category             Number        Costs          Costs

A. For which no management
decision had been made by
the beginning of the reporting
period.                            3         $ 3,006,934       $0

B. Which were issued during
the reporting period.              1          $ 81,374         $0

Subtotals (A + B)                  4         $ 3,088,308       $0

C. For which a management
decision was made during the
reporting period.                  0             $0            $0

 (i) Dollar value of
recommendations that were
agreed to by management.           0             $0            $0

 (ii) Dollar value of
recommendations not agreed
to by management.                  0             $0            $0

D. For which no management
decision has been made by
the end of the reporting
period.                            4         $ 3,088,308       $0

E. Reports for which no
management decision was
made within 6 months of
issuance.                           3        $ 3,006,934       $0




                                        18
                                                     APPENDIX D
Reports With Potential Additional Program Funds

            Category                     Number   Dollar Value

A. For which no management
decision had been made by the
beginning of the reporting
period.                                    2       $ 15,404
B. Which were issued during the
reporting period.                          1      $ 858,000

Subtotals (A+B)                            3      $ 873,404

C. For which a management
decision was made during the
reporting period.                          0          $0

 (i) Dollar value of
recommendations that were agreed
to by management.                          0          $0

 (ii) Dollar value of
recommendations that were not
agreed to by management.                   0          $0

D. For which no management
decision has been made by the end
of the reporting period.                   3      $ 873,404

E. Reports for which no
management decision was made
within six months of issuance.             2       $ 15,404




                                    19
                                                                      APPENDIX E
Summary of Reports More Than 6 Months Old Pending
Corrective Action at March 31, 2010

The following is a list of audit and evaluation reports that are more than 6
months with management decisions for which corrective action has not been
completed. It provides report number, title, issue date, and the number of
recommendations without final corrective action.

E-HP-NM-01-07              Administration of Payments Received Under the Help
                           America Vote Act by the New Mexico Secretary of
                           State, May 2008, 2 Recommendations

I-PA-EAC-01-06             Improvements Needed in Management of Travel by the
                           Election Assistance Commission, July 2007,
                           4 Recommendations

I-EV-EAC-01-07B            Assessment of the U.S. Election Assistance
                           Commission’s Program and Financial Operations,
                           February 2008, 8 Recommendations

I-PA-EAC-01-08             Audit of the U.S. Election Assistance Commission’s
                           Fiscal Year 2008 Financial Statements, November
                           2008, 3 Recommendations

I-PA-EAC-02-08             Audit of U.S. Election Assistance Commission’s
                           Compliance with Section 522 of the 2005 Consolidated
                           Appropriations Act, March 2009, 2 Recommendations

I-EV-EAC-01-08             United States Election Assistance Commission Federal
                           Information Security Management Act 2008
                           Independent Evaluation Report, October 2008, 7
                           Recommendations




                                         20
                                                                     APPENDIX F
Summary of Reports More Than 6 Months Old Pending
Management Decision at March 31, 2010

This listing included a summary of audit and evaluation reports that were more
than 6 months old on March 31, 2010, and still pending a management decision.
It provided report number, title, and number of unresolved recommendations.


E-HP-FL-02-08             Administration of Payments Received Under the Help
                          America Vote Act by the State of Florida, November
                          2008, 1 Recommendation


E-HP-OR-07-08             Administration of Payments Received Under the Help
                          America Vote Act by the Oregon Secretary of State’s
                          Election Division, June 2009, 3 Recommendations


E-HP-IA-06-08             Administration of Payments Received Under the Help
                          America Vote Act by Iowa’s Secretary of State,
                          September 2009, 18 Recommendations


E-HP-RI-05-07              Administration of Payments Received Under the Help
                          America Vote Act by The Rhode Island and Providence
                          Plantations Secretary of State’s Election Division,
                          September 2009, 7 Recommendations




                                       21
                                                                           APPENDIX G
Reporting Requirements of the IG Act

Section of Act                            Requirement                           Page

Section 4(a)(2)    Review of Legislation and Regulations                          12

Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                None

Section 5(a)(2)    Recommendations for Corrective Action With Respect to         None
                   Significant Problems, Abuses, and Deficiencies

Section 5(a)(3)    Significant Recommendations From Agency’s Previous
                   Report on Which Corrective Action Has Not Been Completed       21

Section 5(a)(4)    Matters Referred to Prosecutive Authorities and Resulting     None
                   Convictions

Section 5(a)(5)    Matters Reported to the Head of the Agency                    None

Section 5(a)(6)    List of Reports Issued During the Reporting Period             17

Section 5(a)(7)    Summary of Significant Reports                                 4

Section 5(a)(8)    Statistical Table – Questioned Costs                           19

Section 5(a)(9)    Statistical Table – Recommendations That Funds Be Put to      None
                   Better Use

Section 5(a)(10)   Summary of Audit Reports Issued Before the                     22
                   Commencement of the Reporting Period for Which No
                   Management Decision Has Been Made

Section 5(a)(11)   Significant Revised Management Decisions Made During          None
                   the Reporting Period

Section 5(a)(12)   Significant Management Decisions With Which the Inspector     None
                   General Is in Disagreement

Section 5(a)(13)   Information Described Under Section 804(b) of the Federal     None
                   Financial Management Improvement Act of 1996




                                           23
                           Help to ensure efficient, effective, and transparent EAC operations and
OIG’s Mission
                           programs




                           Copies of OIG reports are available on the OIG website,
                           www.eac.gov/eac_ig.

                           Copies of OIG reports can be requested by e-mail: (eacoig@eac.gov).

                           Mail orders should be sent to:
Obtaining Copies
                                U.S. Election Assistance Commission
of OIG Reports
                                Office of Inspector General
                                1201 New York Ave. NW - Suite 300
                                Washington, DC 20005

                           To order by phone: Voice:    (202) 566-3100
                                                 Fax:   (202) 566-0957



                           By Mail:   U.S. Election Assistance Commission
                                      Office of Inspector General
To Report Fraud, Waste
                                      1201 New York Ave. NW - Suite 300
and Abuse Involving the               Washington, DC 20005
U.S. Election Assistance
Commission or Help         E-mail:    eacoig@eac.gov

America Vote Act Funds
                           OIG Hotline: 866-552-0004 (toll free)

                           On-Line Complaint Form: www.eac.gov/eac_ig

                           FAX: 202-566-0957
           Inspector General
          U.S. Election Assistance Commission




This report, as well as other OIG reports and testimony, are available on the
internet at: www.eac.gov/eac_ig
